                              CLOSEOUT FOR M92110044
       This case was b
director in the Divis


member in the Department of
had served as an &                                                           e complainant alleged
                                                      the subject and a faculty member in the
                                                      , contained text plagiarized from a published

        OIG compared the subject's proposal with the original author's article and found six
blocks of text in the proposal that originally appeared in the article. Although the introduction
to the proposal contained a citation to the original author's article, none of the transcribed blocks
of text were offset by quotation marks or indentations. A citation to the original author's work
did not accompany each block of text. When contacted by OIG, the subject explained that the
same text had appeared in his dissertation, and that his dissertation had been reviewed and
approved by the original author. The original author had not commented on the subject's use
of the material in the dissertation. The subject said that he was quoting his dissertation in his
proposal and that he was so familiar with the wording of the copied text that he had failed to
correctly attribute the work to the original author. When contacted by OIG the original author
said that he had actively advised the subject in graduate school and that the graduate students
learned about ethical conduct in science informally through contact with their mentors. The
original author further indicated that he had not closely read the subject's dissertation and had
not noticed the transcribed material.

       OIG concluded that the subject's failure to offset each block of copied text by quotation
marks or indentations and to accompany each block with a citation was attributable to inadequate
training. OIG explained the'concep of plagiarism to the subject and provided him with a copy
of "On Being a Scientist," (a publication of the National Academy of Sciences). This
publication contains a brief, but clear, discussion of plagiarism and other forms of misconduct
in science. The subject reviewed the material. At OIG's request he revised the text in question
in his proposal, enclosing each block of copied text in quotation marks, and providing a citation.
OIG reviewed and approved these changes. The subject then amended his proposal by
forwarding, to the NSF program, copies of the corrected pages to replace the original pages.
These pages were incorporated into the proposal jacket.

    OIG feels that this young investigator's failure to adequately mark and cite all blocks of
verbatim text are attributable to inadequate training in research documentation. As a result of
OIG's actions he has developed a greater understanding of plagiarism and misconduct in science.
He has taken the appropriate remedial action. This case is closed without further action.



                                            Page 1 of 2
                             CLOSEOUT FOR M92110044




                               7 - ,643

Staff Scientist, Oversight


Concurrence:




                                                                                  7/19 / 4   3
Donald E. ~uzzeld'
Deputy Assistant Inspector General,                Assistant Inspector General for Oversight
Oversight




               K. Fisher




cc:    Assistant Inspector General for Oversight
       Inspector General
       Counsel to the Inspector General




                                        Page 2 of 2



                                           93 -'CY
